Supreme Court, U.S.
FILED

CASE No.

!

- /W.7

A

JAK 2 9 2021
OFFICE OF THE CLERK

IN THE UNITED STATES SUPREME COURT
OFFICE OF THE CLERK
WASHINGTON, DC 20543-0001

DAVID LOUIS WHITEHEAD,
PETITIONER,
V.

US COURT OF APPEALS FOR NINTH CIRCUIT
CASE NUMBER 19-55905
US DISTRICT COURT FOR CENTRAL DISTRICT OF
CALIFORNIA CASE NUMBER 2 :19-CV-05500

NETFLIX, INC, ET AL.
RESPONDENTS,

On Petition For A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT OF
CALIFORNIA
Davtd Louts Whttehead
1906 Scott St.
Bosster, Louisiana 71111

318-820-5029 (cell)

RECEIVED
FEB - 3 2021

ematl:

DAOUDDAVIDLOUIS@YAHOO.COM

•FFICE.OF THE CLERK
SUPREME COURT. U.S.

1

JOHN DOES, 1-10; MARVEL ENTERTAINMENT LLC; WALT DISNEY
COMPANY; VIACOM; MARVEL STUDIOS LLC; BUENA VISTA HOME
ENTERTAINMENT, INC; PARAMOUNT PICTURES, INC.; SONY HOME
ENTERTAINMENT, INC.; MGM, INC.; LIONSGATES HOME
ENTERTAINMENT; COMCAST; CBS, INC; JP MORGAN; BANK OF
AMERICA; VERIZON COMMUNICATIONS, INC. ; CIRQUE DU SOLEIL;
AMAZON STUDIO; AMAZON BOOKS; DOES, UNNAMED RANDOM HOUSE
PUBLISHER, UNNAMED COLONY CAPITAL; UNNAMED DEWAYNE
WICKHAM; UNNAMED TYLER PERRY; UNNAMED TOM CRUISE AND
PAULA WAGNER; JOHN DOES 1-15

2

I

QUESTIONS PRESENTED FOR THE HIGH COURT

• Whether The 9™CIRCUIT COURT HAD FULL JURISDICTION OF
THE APPEAL, HAVING NO NOTICE OF APPEAL FILED By
PETITIONER IN THE Central DISTRICT COURT UNTIL 1

year

AND 6 MONTHS LATER, DECEMBER 7, 2020, AND THE CIRCUIT
Court

ruled

ADVERSELY

on

December 10, 2020.

• Whether The 9th Ctrcutt Court
WHTTEHEAD V.

NETFLTX,

ET AL . ,

could assign the appeal

19-55 905

CASE PRTOR TO NOTICE OF APPEAL

BETNG FTLED WTTH THE DTSTRTCT COURT, MOUNTING TO FRAUD ON THE
COURT AND CONFUSION INVOLVING A PRO SE LTTTGANT AND THE COURTS .

• Whether

the

9th Ctrcutt Court

could decide on merits of case

AFTER THE NOTICE OF APPEAL FTLED WTTH DTSTRTCT COURT 1 YEAR AND
6 MONTHS LATER WITHOUT AFFORDING THE PRO SE LTTTGANT TO AMEND HTS
pleadings,

Vacating

the court's tainted earlier orders or

ASSIGNING A NEW CASE NUMBER MOUNTING TO FRAUD ON THE COURT AND
CONFUSION INVOLVING A PRO SE LTTTGANT.

• Whether

the

9th Ctrcutt Court

could consolidate the fraudalent

APPEAL 19-55905 WTTH THE ORIGINAL NOTICE OF APPEAL FTLED WTTH
THE DTSTRTCT COURT ON DECEMBER 7,

2020, WITHOUT VACATING

EARLIER ORDERS AND WITHOUT ASSIGNING A NEW CASE NUMBER TO THE
ORIGINAL FTLED NOTICE OF APPEAL: DECEMBER 7,

2020.

3

• Whether Dtstrtct Court

and

Magistrate Judges

should be recused

DISQUALIFIED FROM THE CASE DUE TO HAVING BOTH PECUNIARY INTEREST
tn

COMCAST Appellee, judicial btas and personal btas and

Interest tn thts case.

28 U.S.C. SECTION 455 A, Bl, B2,

B3, B4.

• Whether

the

Magistrate Judge

failed to recuse htmself tn a

TTMELY MANNER AFTER ADMITTING THAT HE WAS A PARTNER WTTH OPPOSING

counsel of
court

MSK LLP (Mttchell Stlberberg & Knupp LLP) . The

(Magistrate Etck)

Chrtsttna Snyder

was assigned case wtth

and then wtth

Chtef Judge

Judge John F. Walter (Ruling

Court) .
• Whether

the

Ctrcutt

court's acts violates the petitioner's

constitutional rights to fatr hearing
lacking

Jurisdiction

(5th

• Whether Dtstrtct Court Judge

tn

Themselves

from

Comcast AND AT&T

14th)

amendments)

,

over the case wtth no notice of appeal ftled

TN THE LOWER COURT PRTOR TO DECEMBER 7,

recuse

and

and

Hollywood

2020.

Magistrate Judges

should

case holding pecuniary interest

appelleesand

Hollywood

lenders

.

• Whether the Texas Judges should have ruled on their
RECUSALS INSTEAD OF TRANSFER OF CASE TO CENTRAL DISTRICT
COURT, HAVING NO WAIVERS. “Failure to comply with the procedural
requirements for disclosure under section 455(e) for waiver of
disqualification can result in reversal. In Barksdale v. Emerick.
853 F.2d 1359 (6th Cir. 1988).

Further, section 455(e), the Sixth

Circuit reversed, noting that “[t]here is no disclosure ‘on the
4

record’ and therefore no properly obtained ‘waiver.’ The court went
on to say that section 455(e)’s disclosure and waiver requirements
“must be strictly construed. See Id. Accord United States v.
Murphy, 768 F.2d 1518, 1538-39 (7th Cir. 1985) (disclosure must
be on record).
• Whether The Preftltng Court

having pecuniary interest tn the

PREVIOUS LTTTGATTON WHTCH ISSUED THE PREFTLTNG ORDER CAN PROHIBIT
THTS CASE FROM GOTNG FORWARD ON THE MERITS OF THE ALLEGATIONS AND

claims.

In

other words, can the

Judge

tssue a

Preftltng Order

HAVE PECUNIARY INTEREST WHTLE TSSUTNG THE PREFTLTNG ORDER.

same

Judge

THE

recused htmself tn thts action reassigned to another

court having pecuniary interest

.

5

II
PARTIES TO PROCEEDINGS AND RULE 29.6

STATEMENT

PETITIONER IN THIS COURT, IS DAVID LOUIS WHITEHEAD;
RESPONDENTS IN THIS COURT, DEFENDANT-RESPONDENTS ARE
NETFLIX, INC., JOHN DOES, 1-10; MARVEL ENTERTAINMENT
LLC; WALT DISNEY COMPANY; VIACOM; MARVEL STUDIOS LLC;
BUENA VISTA HOME ENTERTAINMENT, INC; PARAMOUNT PICTURES,
INC.; SONY HOME ENTERTAINMENT, INC.; MGM, INC.;
LIONSGATES HOME ENTERTAINMENT; COMCAST; CBS, INC; JP
MORGAN; BANK OF AMERICA; VERIZON COMMUNICATIONS, INC. ;
CIRQUE DU SOLEIL; AMAZON STUDIO; AMAZON BOOKS; DOES,
UNNAMED RANDOM HOUSE PUBLISHER, UNNAMED COLONY CAPITAL;
UNNAMED DEWAYNE WICKHAM; UNNAMED TYLER PERRY; UNNAMED TOM
CRUISE AND PAULA WAGNER; JOHN DOES 1-15

6

STATEMENT OF CASE
Petitioner

argues

THAT

tn

2019 HE HAD NOT FILED A NOTICE OF

APPEAL IN THE DISTRICT COURT, BUT Ftled A WRIT OF MANDAMUS
WITH THE 9th CIRCUIT APPEALS COURT, AND FILED AN AMENDED
WRIT OF MANDAMUS WITH THE CIRCUIT COURT. From
9™Ctrcutt Court

created two different appeal cases,

INVOLVES FRAUD AND/OR MISTAKE.

For

instance,

these ftltngs,

ONE OF WHTCH

The Ntnth Ctrcutt

court

CREATED APPEAL ON MANDAMUS AS WHTTEHEAD V. DISTRICT COURT OF LOS

Angeles, 19-71906.

Appellant

ftled an amended

Wrtt

Mandamus

of

WHTCH WAS CONVERTEDBY THE CTRCUTT COURT TNTO A SECOND APPEAL CASE ON

the merits:

19-55905. In

short,

The Ntnth Ctrcutt Court

created a

SECOND APPEAL ON THE MERITS ASSIGNED AS CASE 19~55 905 WITHOUT ANY
NOTICE OF APPEAL FTLED TN 2019 TN THE DISTRICT COURT.
assignment

19-55905 Whttehead v. Netfltx Inc,

et al.,

Thts CASE
was based on

FRAUD OR TNTENTTONAL FRAUD AND/OR MISTAKE DUE TO FACT THERE WAS NO
2019 NOTICE OF APPEAL FTLED TN THE DTSTRTCT COURT RELATING TO THTS
CASE .

7

The US Supreme Court
55905

issued a miscellaneous case relating to

Number 20M4 Whttehead

as

Petitioner

dtd not pay the

$300

discovering the sertous fraud or

Petitioner
tn the

Court

Netfltx,

et al.

However,

fees to the htgh court after

Mistake.

As STATED, TN 2019,

had not ftled a notice of appeals on the merits of the case

Central District Court
as

v.

19-

19-55 905. Rule 60

for

California,

9th Ctrcutt

assigned by

b

3, 60

tn

December 2020, Petitioner

b

6 (Case

assignment)

fraud on

the court.

Due

to the

Fraud

or

Mistake,

ftled hts

ORIGINAL NOTICE OF APPEAL ATTEMPTING TO CORRECT THE FRAUD OR MISTAKE
RELATING TO 19~55905.

THE CLERK'S OFFICE FOR THE 9™ CTRCUTT DTD

NOT REASSIGN ANOTHER APPEAL NUMBER, BUT TT APPEARS THAT THE COURT HAVE
CONSOLIDATED THE PETITIONER'S

(Dec. 7, 2020)
In

addition

District

of

California

District Court's Notice

wtth the non-Nottce of

Petitioner's
Texas,

Appeal

Appeal 19-55905.

case was ortgtnally ftled tn

and improperly transferred to

Eastern

Central District

without the court ruling on recusal motions.

petitioner agreed to transfer to

of

California Court,

of

Although

during the

8

HEARINGS, PETITIONER BELIEVES AND ASSERT THAT HE ASKED FOR THE CASE TO
BE TRANSFERRED TO THE NORTH DISTRICT OF CALIFORNIA.

Nonetheless,
Texas

there was no watver requests, and

The Judges

tn the

court had a duty to rule on the pending recusal motions tn the

RECORD,

PRTOR TO TRANSFER TO CENTRAL DISTRICT OF CALIFORNIA.

addition,

Petitioner

New York,

where witness actor

Texas Court Judges

IN

had previously requested transfer of the case to

Wesley Sntpes

resides.

In

short,

The

failed to rule on thetr recusals based on recusal

MOTIONS FTLED BEFORE TRANSFER OF CASE TO CALIFORNIA.

EVENTHOUGH THE PETITIONER AGREED TO THE TRANSFER, CASE LAW STATES THAT
A WATVER WAS REQUIRED BY PARTIES, RELATING TO PENDING RECUSAL
DECISIONS OF THE TEXAS COURT.

Moreover,

the statutes states that

WHEN DISQUALIFICATION REQUESTS ARE MADE, FULL DISCLOSURE SHOULD BE
PROVIDED TO THE PARTIES BY THE COURT, AND THEREFORE, THE HTGH COURT
SHOULD SEND THE CASE TO THE CTRCUTT COURT ON THE ALLEGED FRAUD ON THE
COURT, IMPROPER TRANSFER FROM TEXAS TO CALIFORNIA, HAVING THE JURISTS
tn the

Texas

court rule on thetr recusals,

TRANSFER ORDER TO CALIFORNIA.

See Whttehead

18-cv-4 60, E.D. Texas, Docket
Also

whtch were pending before

number

see case and statutes on watvers

111,

v.

Netfltx Inc,

ftled

et al.

,

June 24, 2019.

: "Failure to comply with
9

the procedural requirements for disclosure under
section 455(e) for waiver of disqualification can
result in reversal. In re;Barksdale v. Emerick, 853
F.2d 1359 (6th Cir. 1988). Further, section 455(e), the
Sixth Circuit reversed, noting that "[t]here is no
disclosure 'on the record' and therefore no properly
obtained 'waiver.' The court went on to say that
section 455(e)'s disclosure and waiver requirements
"must be strictly construed. See

Id. Accord United

States v. Murphy, 768 F.2d 1518, 1538-39 (7th Cir.
1985)(disclosure must be on record). In short, there
were no disclosure on records by the Texas judges,
requiring reversal of the case, to be sent back to the
Texas court to address disqualification of the jurists,
who failed to rule on the recusal motions. 28 U.S.C.
Section 455 a, bl, b2,

b4.

10

Grounds for Reversal
1.Texas Jurists failed to rule on their recusals prior
to transfer to California. Further noting there can
be no waivers relating to pending recusal motions
before the Texas court prior to transfer to Central
District of California,without full disclosures of
the court's pecuniary and organizational interests.
Recusals motions must be answered before transfer
from Texas to California. Further, Noting Texas
jurists in this case held pecuniary and
organizational interest and had prior knowledge of
the case as material witnesses. Liteky v. U.S. 510
U.S. 540 (1994)/Moreover,the jurists failed to rule
on unsealing the federal probe (FBI) prior to
transfer, which is causation pertaining to the fraud
in both Texas and Louisiana. See Lloyd v. CVB Fin.
Corporation, 811 F.3d 1200 (9th Cir. 2016)(Federal
probe data can be used for causation in civil
action). Circuit Judge Johnnie B. Rawlinson and Judge
Barry G. Silverman denied injunctive relief, lacking
jurisdiction due to fact there was no notice of
appeal filed with the district court to create case
assignment 19-55905, activating possible relief due
to fraud on the court.

Judge Rawlinson's spouse was

employed by appellees in Las Vegas, and the court
receives her late spouse's pension from his
li

employment with appellee.

3clc, 28 U.S.C. Section

455 a, bl, b4, b5 i,ii,iii, iv. Judge Silverman's
2018 financial statement shows pecuniary interest in
the litigation. 28 U.S.C. Section 455 a, bl, b4.
2. The 9th Circuit Court lacked Jurisdiction to rule on
the case due to fact in 2019 when there was no Notice
of Appeal filed in the Central District Court
relating to some of the Circuit Court's decisions
inl9-55905 Whitehead v. Netflix, and this honorable
court's

Miscellaneous assignment case of the Supreme

Court. See Appling v. State Fram Mut. Auto Ins. Co.,
340F.3d, 769, 780 (9th Cir. 2003). Hazel-Atlas Glass
Co. v. Hartford-Empire Co, 322 U.S. 238, 244, 64 S.
Ct., 997, 88 L. Ed. 1250 (1944). Also see Baltic Air
Lines Inc, v. Trans Management, Inc, 98 F. 3d 640
(D.C. Cir. 1996)(Attorneys knowledge of the fraud and
perjury involving bribery of the court).
For instance,Magistrate Judge Charles Eick was a
partner with opposing counsel: MSK LLP (Mitchell
Silberberg & Knupp LLP) .

Moreover, the Magistrate

admits in his extremely late recusal that he was a
personal friend of MSK LLP Attorney Karin Pagnanelli,
who represents appellees in this case. In addition,
Netflix Senior Counsel Suzanne Steinke a former
partner with MSK LLP (Mitchell Silberberg
&Knupp)gives the appearance of fraud with the case
reassignments involving Magistrate Eick, to MSK LLP
12

opposomg counsels Emily Evitt and Karin Pagnanelli
and others from the law firm.

28 U.S.C. Section 455

а, bl, b2, b4, Also see Accord Stringer v. United
States, 233 F.2d 947, 948 (9th Cir. 1956); Rules 60 b
б, United States v. Beggerly, 524 U.S. 38, 46, 118 S.
Ct. 1842, 141 L. Ed. 2d 32 (1998)(quoting Hazel-Atlas
Glass Co v. Harford-Empire Co, 322 U.S. 238, 244,64
S. Ct. 997, 88 L. Ed. 1250 (1944).
Magistrate Eick finally recused himself after three
reassignments of the case to Judges Snyder, Robert
Klausner, and Judge Walter.

Magistrate Eick recused

himself during the reassignmentof petitioner's cases
from Chief Judge Synder toprefiling Judge Klausner to
Judge Walter.

Judge Klausner recused himself from

this case due to his earlier prefiling order in
Whitehead v. Millennium Films, et al.,2:15 cv-03564)
holding pecuniary interest in Verizon Communications.
This too is a serious violation. The court holds
pecuniary interest in the case issues a prefiling
order against the Pro se litigant in the case. 28
U.S.C. Section 455 a, bl, b4.

In addition, Judge

Stephen V. Wilson participated in the case along with
his former law clerk Linda Burrow and Judge Klausner,
noting that Attorney Burrow is now employed for
Netflix.

13

The court, Judge Wilson and his former law clerk
Attorney Burrow are associated with Judge Klausner's
prefiling order against the petitioner. Judge Wilson
having pecuniary interest in the petitioner's case
participated with Judge Klausner during the adverse
rulings of Judge Klausner. Ms. Burrow of Netflix was
opposing counsel after clerking for the court. Judge
Wilson's former law clerk Attorney Burrow was
opposing counsel in petitioner's case before Judges
Klausner and Wilson. This too is a serious violations
of ethics and the rules of law.
The above captioned case was reassigned from
prefiling Judge (Klausner) to ruling Judge (Walter),
with both jurists having pecuniary interest in the
outcome of the litigation. Both Judges Klausner and
Walter knew each other and the case reassignment
interferes with the administration of justice and
integrity of the court.

The court had prior

knowledge of the petitioner's cases and each judge
knew of their conflicts of interest in this Hollywood
matter. See Liteky v. U.S, 510 U.S. 540 (1994); also
see Toscano , 441 F.2d 934, quoting England v. Doyle,
281 F.2d 304, 309 (9th Cir. 1960); See 28 U.S.C.
Section 455 a, bl, b4.

See also Applying v. State

Farm Mut. Auto Insurance, 340 F.3d 769, 780 (9th Cir.
2003); Also see Preston v. United States, 923 F.2d
731; Accord Stringer v. U.S., 233 F.2d 947, 948

(9th
14

Cir. 1956; Latshaw v. Trainer Wortham & Co, Inc, 452
F.3d 1097, 1102 (9th Cir. 2006). Also see United
States v. Beggerly, 1998, giving plaintiff the
constitutional right to sue in eguity over Judge
Klausner's tainted decision with the court holding
pecuniary interest in the litigation and issuing a
fraudulent prefiling order to protect the court's
financial interest. 28 U.S.C. Section 455 a, bl, b4.
The petitioner believes and assert that the United
States FBI report will conclude Judicial RICO and
ongoing association tied to petitioner's copyright
cases and the courts. There has been about 5 (Five)
prefiling judges involved with the petitioner's
cases, with all of the prefiling courts having
financial conflicts of interest as follows:
a.Deborah Chasanow, financial interest in home loan
(First Union bank)(represented by White & Case LLP
associated with Judge Paul L. Friedman. During this
time span, Judge Friedman was a General Partner
with White & Case LLP and associates in Wallpark
LLC. See 9th Circuit ruling in re: Randolph Wolfson
v. Colleen Concannon Louis Frank Dominguez, et al.,
No. 11-17634. The Randolph decision makes it
extremely clear that federal judges are prohibited
to be partners with law firms and other attorneys,
while serving on the bench.

According to this

decision, a judge can only be business partners
15

with family members. Judge Friedman, White & Case
LLP and Wallpark Investors LLC knew this, although
spouses were involved in this organization as a
scheme and disguise. Ms. Elizabeth Friedman also a
partner in White & Case LLP and Wallpark Investors
operation violates the statutes and law. Judge
Friedman dismissed 11 of petitioner's cases for his
and spouse and law firm's pecuniary interest. This
high court address these types of matters as
ongoing associations in RICO acts.

See Boyle v.

US,556 US 938 (2009); also see US v. Turkette, 452
U.S. 576 (1981). Judge Chasanow had serious
conflicts of interest, and the court even met with
Judges at the Georgetown University Law Seminar
prior to her adverse ruling,

28 U.S.C. Section 455

a, bl, b4.
b. Judge Anthony Trenga, financial interest in
General Electric, in 2009, parent company to NBC
Universal Pictures. The court is on record
(Judicial Misconduct matter), that he didn't know
that General Electric was parent to defendant NBC
Universal Pictures, sold to Comcast in 2013 in
part. Universal Pictures, a defendant in
petitioner's case before Judge Trenga was
associated with General Electric. Judge Trenga is
on record admitting that he owned the financial
stocks in General Electric, parent to defendant
16

Universal Pictures.

See Whitehead v. Paramount

Pictures, et al., 08cv792,

(Judges Trenga,

Cacheris, and Hilton). Judge Cacheris and Hilton
recused themselves holding General Electric
financial interest. The judicial interest of this
case for this honorable court is the fact that
Attorney Trenga settled a case against General
Electric in 1996,associated with Judges Cacheris
and Hilton, and therefore the court should have
known that General Electric owned NBC radio and
Television. Fourth Circuit Chief Judge Gregory who
participated in appellant's cases before Judges
Cacheris and Trenga, failed to recuse himself in
Judge Trenga's misconduct case. See Rice v.
McKenzie, 581 F.2d 1114 (1978); Moreover, the
Fourth Circuit Judicial Council failed to issue an
investigation and impeachment inguiry. It's unclear
who is a member of the panel for the Fourth Circuit
Court. A litigant should be able to acquire
knowledge who were the ruling jurists in this
matter for further determination of due process of
law.

17

c. Judge Richard Roberts. Financial interest in
Comcast and Level 3 Communications. The court had
Prior knowledge of petitioner who wrote the
screenplay on former and late District of Columbia
Mayor Marion S. Barry, who the Judge as a
practicing Department of Justice prosecutor
prosecuted Mr. Barry.

28 U.S.C. Section 455 a, bl,

b2, b4.
d. Judge Richard T. Haik, financial interest in
Verizon Communications, associated with Verizon
FIOS and Hollywood,

Moreover, the court had

conflicts with his relative (Sister) Attorney
Suzanne Haik Terrell and her law firm representing
appellees as clients. 28 U.S.C. Section 455 a, bl,
b4, 3clc.

In addition, Judge Haik had pecuniary

interest conflicts with his Community Housing
association known as COLONEL J. George & S. Saloom
Community Home, Inc, tied to his partner Maurice
Hannie of Keller Williams Reality. Bank of America
and JP Morgan are defendants in the petitioner's
case before Judge Haik. Keller Williams is
associated with these lending institutions (Bank of
America and JP Morgan chase and JP Morgan)
defendants in petitioner's case before Judge Haik
tied to Mr. Hannie, agent for Keller Williams. 28
U.S.C. Section 455 a, b4.

See 3clc, also see

Liljeberg v. Health Svcs, Acg, Corp, 486 U.S. 847
18

(1988). Tramonte v. Chrysler Corp, 136 F.3d, 10251029-1030 (5th Cir. 1998); see also US v. Beggerly,
524 U.S. 38, 46, 118 S. Ct. 1862, 141 L. Ed. 2d 32
(1998)(quoting Hazel-Atlas Glass Company v.
Hartford-Empire Co, 322 U.S. 238, 244, 64 S. Ct.
997, 88 L. Ed. 1250 (1944).
e. Judge Robert Klausner, held financial interest in
Verizon Communications tied to Verizon FIOS and
Hollywood and prefiling the pro se petitioner,
which violates the statutes and laws of the United
States Judiciary.

28 U.S.C. Section 455 a, bl, b4.

See U.S. v, Sineneng-Smith, 590 U.S.

2020;

Also see Greenlaw v. United States, 554 U.S. 237,
2008.
In short, before the high court, are questions and
judicial ethics presented on whether prefiling
courts and judges having pecuniary interest should
issue Prefiling Orders in the litigation?
Texas Attorney on review

One

the case for legal

representation labeled this case as Judicial RICO
CONSPIRACY. Whereas several judges having pecuniary
interest issued prefiling orders against petitioner
violating his constitutional rights (5th and 14th
amendments) due process of law.

Also see 18 U.S.C.

1962 as amended. Rules 60 b 3, 60 b 6.

19

3. Both Judge Walter and Magistrate Eick held Comcast
financial interest. Comcast is a defendant-appellee
in this case.

In addition, Judge Walter recused

himself in case Optimum Productions et al., v. Home
Box Office, et al., 2:19cv01862, admitting to holding
AT&T financial interest. AT&T is parent to DirecTV
(Hollywood Cable) company. Judge Walter should have
recused himself from petitioner's case holding
Comcast and AT&T financial interest reguiring
disgualification. See Latshaw v. Trainer Wortham &
Co, Inc, 452 F.3d 1097, 1102 (9th Cir. 2006); also see
28 U.S.C. Section 455 a, bl, b4.
4.The Supreme Court recently ruled that jurists must be
fair and impartial in cases before them.
Sineneng-Smith, 590 U.S.

See U.S. v.

2020; Also see Greenlaw

v. United States, 554 U.S. 237, 2008. Also see
Disgualification Section 455(b)

(1) reguiring a judge

to disgualify himself or herself "[Where he or she
has a personal bias or prejudice concerning a party,
or personal knowledge of disputed evidentiary facts
concerning the proceeding."

The standard for

determining disgualification is "Whether a reasonable
person would be convinced that the judge was biased."
"Recusal under Section 455 (b)

(1)

'is reguired only

if actual bias or prejudice is proved by compelling
20

evidence."

See in re: Murchinson, 349 U.S. 11, 14,

1954; Aetna Life Insurance Company v. Lavoie, 475
U.S. 813 (1986), Dred Scott v. Sandford, 60 U.S. 393
reversed by 13th and 14th amendments of the
Constitution; Plessy v. Ferguson, 163 U.S. 537

(1986)

and Brown v. Board of Education of Topeka, 357, U.S.
483 and Obergefell v. Hodges, 576 U.S. 644 (2015).
Petitioner as a Professor argues the Dred Scott case
was wrongly decided due to fact, in part citizenship
was tagged to the African slaves (included) with the
founding fathers'"Three Fifth Compromise" for
representation purposes.

Nonetheless, 13th and 14th

amendments reversed the Taney decision in Dred Scott.
5. Currently, pending before the 9th Circuit Court is
petitioner's most recent Notice of Appeal (December
7, 2020) filed in the District Court, and rehearing
petition filed by petitioner appears to be
consolidated with the fraudulent case.

21

Request and Resolution
6. Petitioner request the high court to return case to
the 9th Circuit for determination, on Texas court
failure to rule on their recusal motions pending in
the court.
7. Petitioner request the high court to return case
directly to lower courts to send case back to the
Texas Court for determination on recusal
decisions."Failure to comply with the procedural
requirements for disclosure under section 455(e) for
waiver of disqualification can result in reversal. In
re: Barksdale v. Emerick, 853 F.2d 1359 (6th Cir.
1988) .

Further, section 455(e), the Sixth Circuit

reversed, noting that "[t]here is no disclosure 'on
the record' and therefore no properly obtained
'waiver.' The court went on to say that section
455(e)'s disclosure and waiver requirements "must be
strictly construed.

See

Id.

Accord United States

v. Murphy, 768 F.2d 1518, 1538-39 (7th Cir. 1985)
(disclosure must be on record).
8.Petitioner requests the high court to Order 9th
Circuit Court to address the lack of jurisdictional
allegationsin 2019 to December 6, 2020, prior to
petitioner filing his original notice of appeal on
December 7, 2020, in this case for further review.

22

9. Petitioner requests the high court to order the 9th
Circuit Court to vacate all of its rulings in part
due to case 19-55905 in part lack of jurisdiction in
2019 and part of 2020 court decisions. For instance,
earlier circuit court decisions were tainted due to
lack of jurisdiction, no notice of appeal filed in
the district court in 2019 but case assignment 1955905 was created by Circuit Court.
10.

Petitioner requests the high court to Order the 9th

Circuit Court to address the posture of the most
recent original filing of Notice of Appeal filed On
December 7, 2020, in Central District Court and the
Circuit Court's adverse decision on December 10,
2020, without affording pro se litigant with any
leave to amend his pleadings and arguments of fraud
on the court.
In short, petitioner argues that District Court
Judges in both Texas and California held pecuniary
and organizational interest and conflicts requiring
disqualification. The transfer Magistrate judge in
2018 held pecuniary interest in Appellee JP Morgan
Chase, with JP Morgan as defendant, and California
District Court Judge and Magistrate Judges in 2018
held Comcast and AT&T financial interest with Comcast
as defendant-Appellee in the case.

28 U.S.C. Section

455 a, bl, b4.
23

Magistrate Judge Eick in California presided on the
case from Judges C Snyder to Judge John F. Walter, as
a former partner with opposing counsel MSK LLP.

See

attached exhibit list and description of those
exhibits.

Neither California and Texas courts would

rule on motion to unseal federal (FBI) investigation
which points to causation.

See Lloyd v. CVB Fin.

Corp, 811 F.3d 1200 (9th Cir. 2016). Nonetheless, the
high court has discretion to also reinstate the Writ
of Mandamus to unseal the federal probe due to fraud
on the court, or mistake by the Circuit Court
assigning the case without any foundation (Notice of
Appeal) filed in the Central District Court in 2019
and in part 2020.

The Circuit Court's decisions in

2019 and in part in 2020 are tainted with fraud and
conflicts of interest.

The Circuit Court Judge

Jacgueline Nguyen has serious conflicts with the
petitioner's related case 19-71906, failing to recuse
herself due to the following grounds:
• The court's father was an Intelligence Officer for
the Governmet of South Vietnam, working for CIA
during the Vietnam War, involving the United
States.

CIA is involved in this case, whereas, the

1996 film and novel Mission:Impossible was filmed
at CIA Headguarters, where petitioner's manuscript
was reviewed by CIA's Publication Review Board
(PRB).

Mission Impossible film and novel project
24

are highly likely part to FBI probe relating to
petitioner's copyrighted book-on his life at CIA
sold by Amazon Books without any compensation to
petitioner.

The Circuit Court's adverse ruling

denying the FBI probe pertains to fraud and
judicial bias, giving this honorable court
discretion to unseal probe.
• The court's spouse is a practicing Attorney
representing the Hollywood studios involved with
this case.

The court participated in denying the

FBI report from being unsealed, which possibly show
massive copyright thief and infringement of
petitioner's copyrights.
• The court was employed by the Department of Justice
US Attorney Central District of California,
possibly receiving information about this case
(Judge Norma.Holloway Johnson and Judge Friedman)
and petitioner. See Liteky v. US, 510 U.S. 540
(1994) .
• The court was appointed by President Barrack Obama,
who is currently employed by respondent Netflix.
Both Michelle and Mr. Obama works for Netflix as
producers.

This association provides UNDUE

Influence relating to Ms. Obama's visit to the
Western District of Louisiana, where, the Obamas
legal representatives Williams and Connolly LLP
were named as defendants in petitioner's case in
25

Western District of Louisiana. See Ty Inc, v.
Softbelly's Inc., 517 F.3d 494, 498 (7th Cir. 2008).
The matter was referred by Department of Justice
Criminal Chief Mary J. Mudrick, to FBI. Also see
Bauman v. U.S., 557 F.2d 650 (9th Cir. 1977); There
are multiple conflicts of interest including
pecuniary interest relating to this case reguiring
. the court to grant certiorari.

See In re Cement

and Concrete Antitrust Litigation, 515 F. Supp,
1076, 1079 (D. Ariz. 1981); Also see In re Van
Dusen, 654 F.3d 838, 840 (9th Cir. 2011)(guoting Ex
parte Fahey, 332 U.S. 258, 259-260 (1947).
Moreover, Circuit Judge John Owens participated on
related case in the 9th Circuit of the petitioner
associated with opposing counsel O'Melveny & Myers,
before Judge Paul L. Friedman in petitioner's
cases.
11.

The merits of the petitioner's cases never are

heard due to fact that prefiling order of Judges
Robert Klausner, Richard T. Haik, Deborah Chasanow,
Richard Roberts, and Anthony Trenga, all having
pecuniary conflicts of interest.

The prefiling

Judges in Louisiana, Virginia, Maryland, District of
Columbia and California held serious conflicts of
interest tied to the ruling judge's pecuniary
interest.

26

For instance, Louisiana Judge Dee D. Drell relying on
Judge Haik's tainted prefiling order filed a false
statement in petitioner's related Parish of Caddo
case. In 2017, Judge Drell in the Caddo Parish
related to Netflix case stated that that the court
did not have interest in so called Hollywood studios
or lenders. See Whitehead v. Parish of Caddo, et al,
17cv-306, W.D. Louisiana. To the contrary, the court
held financial interest in Hollywood studios and
lenders. See 18 U.S.C. Section 1001.

The court's

2017 financial disclosure statements show that in
2017 the court held Walt Disney pecuniary interest.
Judge Drell also held Apple Inc, linked to Apple TV.
The court also held Hollywood lender's interest, in
which the court denied. For instance, the court held
Capital One bank and Vanguard financial interest
associated to Hollywood and lenders banking interest.
28 U.S.C. Section 455 a, bl, b4. These financial
banking entities are associated with the Hollywood
lenders and practices.
In 2017-2018, this high court did not hear
petitioner's petition for Writ of Certiorari
inNetflix case involving Judge Drell. The Supreme
Court and parties lacked knowledge of the court's
financial interest and false statements in
petitioner's personal injury case related to the
Netflix case. Judge Drell's 2017 financial disclosure
27

statements were not available when this high court
denied petitioner's Petition for Writ of Certiorari
(October 1, 2018, in re: Whitehead v. Netflix, Inc,
139, 225, 225, (2018) . However, in 2018, after the
court's decision, petitioner finally obtained Judge
Drell's 2017 financial disclosure statements showing
that the court held Walt Disney and Apple Inc,
financial interest and Capital One and Vanguard
Hollywood lender interest, contrary to the court's
statement in related case Whitehead v. Parish of
Caddo, et al., 17-306 W.D. Louisiana.
This honorable court previously commented on fraud on
the court, "justified the historic power of eguity to
set aside fraudulently begotten judgments' on the
basis that 'tampering with the administration of
justice... involves far more than an injury to a single
litigant.

It is a wrong against the institutions set

up to protect and safeguard the public'", see in re:
Levander, 180 F. 3d 1114, 1118,

(9th Cir.1999)(quoting

Hazel-Atlas Glass Co. v. Hartford-Empire Co, 322 U.S.
238, 244, 64 S. Ct. 997, 88 L. Ed 1250 (1944); The
fraud and conflicts of interest involved in this
litigation is enormous, requiring judicial review,
granting certiorari, and unsealing the federal
investigation due to causation. Also see US v.
Beggerly, (1998), allowing petitioner to refile his
case against Netflix relating to fraud on the court.
28

The California Judge and Magistrate Judges held
Comcast pecuniary interest, with Comcast as a
defendant in this case.

28 U.S.C. Section 455 a, bl,

b4. The Committee on Financial Disclosure has not
provided petitioner with the California and Texas
court's 2019 financial disclosure statements showing
interest.

Petitioner filed a motion with the 9th'

Circuit Court for injunctive relief relating to
rehearing and Committee on Financial Disclosure has
failed to provide him with 2019 financial disclosure
statements of the Judge Walter and others, including
the Texas Court Judges. Factual evidence filed with
the 9th Circuit Court on rehearing clearly show that
Judge Walter held Comcast financial stocks since
2003-2018, and Magistrate Judge Eick also holds
Comcast financial interest. Comcast is a defendantappellee in this action.

Again, Magistrate Eick is

associated with MSK LLP opposing counsel in this
action.

See Liljeberg v. Health Svcs Acg. Co, 486

U.S. 847 (1988).

The court Magistrate Judge Eick had

a mandatory duty to immediately recuse himself
instead of traveling with the reassignment committee
for adverse rulings against petition by conflict
judges.

29

Merit of the Case
Petitioner believes and argues that Attorney Doug
Coggins submitted his copyrighted script "Batman
Blackman" to actor Wesley Snipes agent at United
Talent Agency (UTA) .

See attached exhibit contract

and letter to UTA from Attorney Coggins. Mr. Snipes
was scheduled to star as Black Panther and he also
had an interest to star as Batman Blackman in
petitioner's work,

In short, access has been

established with Marvel Entertainment of Walt Disney
having interest with Mr. Snipes starring as Black
Panther. Mr. Snipes was indicted and convicted for
tax evasion, and the Black Panther project was given
to actor Chad Bozeman, material witness who has
recently diseased. Petitioner's Batman Blackman
involves the takeover of Black Harlem by Joker Force.
Whereas, Joker and his forces takeover the Harlem
Museum involving high level dignitaries, the same
occurs in Black Panther whereas there is a hostage
takeover in the British African Museum with
Kilmonger, Klaue and others. Klaue character comes
across as The Joker.

The dialogue in Black Panther

continue to use the word "Freeze", "Don't Freeze" and
there- are plot scenes where certain tribe members
actual freezes from the cold weather in the
mountainous Wakanda region escaping the new King
Kilomonger. In constract, plots in "Batman Blackman"
30

dialogue of Mr. Freeze freezing Harlem, New York, New
York and the World relating to temperature (cold)
like the cold freezing temperature in Africa.
Petitioner also can show the court striking similar
scenes, dialogue, events, seguences of events and
infringement of script Batman Blackman, using
soundtrack for the work with songs by Michael
Jackson, sampled by Kendrix Lamar (Black Panther
soundtrack).

See side by side list of similarities

between Black Panther and Batman Blackman.
Appellees can show that Black Panther and Lion King
are similar, involving plots of father and son, and
Kings, however, when adding Klaue as the Joker,the
dialogue including words "Don't Freeze", "Freeze", "I
will never Freeze" in Black Panther compared to
character plot of Joker Force with Mr. Freeze
freezing the world's oceans and people in Batman
Blackman,and then there's the tribal fights in water
and

and music infringement (Kendric Lamar), with

petitioner's expert Dr. O.D. Alexander stating "WOW"
after reviewing the similarities between Michael
Jackson music within petitioner's Batman Blackman
•script and Black Panther's Kendrick Lamar's sampling
Michael Jackson music used by the petitioner,
observers can determine that Black Panther is also
based on Batman Blackman, especially with the
confusion of (l)Kilmonger killing Klaue and basically
31

becoming the joker,trying to take over the world
using Vibranium money, resources and weapons and (2)
later, Kilmonger becomes King of Wakanda, with the
killing T-Challa, and later Kilmonger is killed, by
T-Challa, who appeared to be dead, but survives the
hundred foot drop in the water, returns to revenge
his death and the takeover by the new King,
Kilmonger.

Later in the plot T-Challa speaks to the

United Nations near the end of the film which points
to similarities of the US President speaking to
dignitaries at the Harlem Museum in the beginning of
Batman Blackman. Moreover, T-Challa's father T-Chaka
speaks to the United Nations in the beginning of
Black Panther storyline.

The Batman Blackman and

Black Panther's plots are the strikingly the same
relating to Joker and Joker Force demanding all of
the gold in Fort Knox, and release of all of the
world's prisoners, compared to Klaue and later
Kilmonger demanding for Vibranium moneys, resources
and weapons for World Revolution and takeover by
Wakanda forces using the valuable Vibranium
resources: money and weapons. Then there are the
signals of light in the sky, with Batman signFlashes,in Batman Blackman compared to Light flashes
in the sky of mysterious plane in Black Panther. In
addition in Black Panther is the major plot about a
necklace which is discussed in Batman Blackman
32

script. There is similarity in the character Suri,
whose on a spy mission, high technology guru, which
reflects mood in Batman Blackman technology. Clearly,
this case involves a classic Jury guestion,
determination on the merits of the alleged
infringement, and not conflict judges who hold
pecuniary interest in the outcome of this litigation,
involving a prefiling order preventing the plaintiff
from proceeding with his case. The court and jury
will definitely find out what are the plots and/or
blended sub-plots relating to Black Panther and
petitioner's intellectual property Batman Blackman.
This court's decision in United States v. Beggerly,
524, U.S. 38, 46, 118 S. Ct. 1862, 141 L. Ed. 2d 32
(1998)(guoting Hazel-Atlas Glass Co. v. HartfordEmpire Co, 322 U.S. 238, 244, 64 S. Ct. 997, 88 L.Ed.
1250 (1944) affords petitioner to proceed with his
case.

Access has been established, petitioner has a

copyright with Library of Congress copyright number
for script Batman Blackman as and there's copying of
Batman Blackman script. See Reg. #Au-689-458 dated
September 17, 2002.

33

In short, it is extremely unfair to bar and/or
prohibit petitioner from having access to the court
by jurists having pecuniary interest and making false
statements.

Moreover, it is outrageous to create a

fraudulent appeal case without having a Notice of
Appeal filed by petitioner in the District Court
prior to December 7, 2020. See attached exhibits and
description list showing side by sides similarities
between Black Panther and Batman Blackman. Other
copyright infringement should also be allowed should
the FBI report states that petitioner's copyrights
were massively infringed and stolen and that over 140
judges participated in the massive infringement due
to their pecuniary and organizational interest, tied
to several Prefiling orders. One attorney examined
the case and called it Judicial RICO and Conspiracy.
18 U.S.C. 1962.
Judge Walter stated in his dismissal order that
petitioner brought the same claims filed in Judge
Klausner's court.

That's not true.

There are

different claims in this case. However, nonetheless,
case law Rule 60 b 6, allows petitioner to challenge
rendering decisions involving fraudulent opinions
based on "Extraordinary Circumstances", which must be
present to justify the use of the all catch provision
to vacate judgment.

See e.g. Gonzales v. Crosby, 545

U.S. 524, 535-36, 125 S. Ct. 2641, 162, L. Ed. 2d 480
34

(2005) ( Citing Ackermann v. U.S. 340 U.S. 193, 199,
71 S. Ctr. 209 95 L. Ed. 207 (1950)). The Ninth
Circuit in re: FDIC v. Aaronian, 93 F.3d 636 (9th Cir.
1996) ruled that "Registering Courts generally prefer
litigants to bring motions for post judgment relief
in the rendering court, "but it concluded that it was
proper for a registering court to entertain a
challenge to a rendering court's judgment on the
ground that the judgment was unconstitutional and
therefore, void."

Rule 60 b 6 exists so that courts

may "vacate judgments whenever such action is
appropriate to accomplish justice." Also see
K1apprott v. U.S. 335 U.S. 601, 614, 69 S. Ct. 384 93
L. Ed. 266 (1949);

In case First. Beverages Inc v.

Royal Crown Cola, 612 F.2d 1164 (9th Cir. 1980)
reports that "The proper approach to seeking from
judgment because of a change in the factual
circumstances surrounding this case would be directed
in the first to the district court." Id at 1172'.
Budget Blinds Inc v. White 536 F.3d 244 (3rd Circuit
2008) requires reversal of the decision of the 9th
Circuit Court, tied to fraudulent appeal case 1955905 without a original filed notice of appeal in
2019.
Last, Attorney Alan Pesnell submitted a solicited 30
film proposal to Netflix. After receiving
petitioner's proposal for 30 films, Netflix rejected
35

the proposal.

In a recent decision before the US

Supreme Court, the high court stated in case In re:
Comcast v. National Association of African American
Owned Media, 589 U.S.

2020, involving Byron

Allen's racial discrimination claims on potential
contracts. Doc. No. 18-1711, that Racial
Discrimination must be shown to prevail,

Here, is

another classic jury guestion and not for jurists
having pecuniary interest, to allow litigants to go
forward on their claims for relief (Citing in equity
independent action, US v. Beggerly, 524, U.S. 38,
118, S. Ct. 1862 141 L. Ed. 2d 32 (1998).

Judge

Drell's 2017 financial disclosure statements and the
court's 2017 order in Whitehead v. Parish of Caddo,
17cv306, W.D. Louisiana, clearly show fraud on the
court with the court's false statement. 18 U.S.C.
Section 1001. This act gives petitioner standing
before the court.

36

In conclusion, petitioner prays that the Supreme Court
will grant his petition for certiorari.

Respectfully,
/■

David Louis Whitehead
1906 Scott St.
Bossier, Louisiana 71111
(Word count 6,602).

January 27, 2021

37

CASE No.
IN THE UNITED STATES SUPREME COURT
OFFICE OF THE CLERK
WASHINGTON, DC 20543-0001

DAVID LOUIS WHITEHEAD,
PETITIONER,
V.
US COURT OF APPEALS FOR NINTH CIRCUIT
CASE NUMBER 19-55905
US DISTRICT COURT FOR CENTRAL DISTRICT OF
CALIFORNIA CASE NUMBER 2:19-CV-05500

NETFLEX, INC., et al.
RESPONDENTS,
PETITION FOR A WRIT OF CERTIORARI TO THE UNITED SUPREME COURT

David Louis Whitehead
1906 Scott St.
Bossier, Louisiana 71111
318-820-5029 (cell)
Email: DAOUDDAVIDLOUIS@YAHOO.COM

l

PETITION FOR WRIT OF CERTIORARI REQUESTING THE HIGH
COURT TO UNSEAL DEPARTMENT OF JUSTICE—FBI INVESTIGATION
RELATING TO FRAUD ON THE COURT AND REFER THE CASE TO THE
CONGRESS OF THE UNITED STATES FOR A VOTE DUE TO CONFLICTS
OF INTEREST WITH SUPREME COURT

COMES Now Petitioner David Louis Whitehead with his PETITION FOR
WRIT OF CERTIORARI REQUESTING THE HIGH COURT TO UNSEAL
DEPARTMENT OF JUSTICE—FBI INVESTIGATION RELATING TO
FRAUD ON THE COURT AND REFER THE CASE TO THE CONGRESS OF
THE UNITED STATES FOR A VOTE DUE TO CONFLICTS OF INTEREST
WITH SUPREME COURT

GROUNDS FOR RELIEF
1. Petitioner David Louis Whitehead believes and assert that he has
been subjected to serious and massive fraud on the court and
officers of the court in the lower court, relating to over 140 judges
protecting Judge Paul L. Friedman and others. This fraud should
afford the Supreme Court to lift sanctions and allow petitioner to
proceed as a Pro Se litigant. See case law: Hazel-Atlas Glass Co. v.
Hartford-Emnire Co.. 322 U.S. 322 U.S. 238, 244 64 S. Ct. 997,88 L. Ed.
1250 (1944); Also see
2. The great Justice John Paul Stevens voted to hear Petitioner’s case
in Whitehead v. Wickham, et al., 05-5734.
3. Most recently, the high court assigned a miscellaneous case
regarding related matters, however, in 2019, there was no Notice of
Appeal filed in the Central District Court for California to generate
Appeal No. 19-55905 by the Circuit Court.
2

4. Petitioner recently on December 7, 2020, filed a Notice of Appeal
with the Central District Court related to this case. In short a fraud
was activated against the courts and pro se petitioner regarding the
assignment of case 19-55905. Further, noting on December 10, 2020,
the court ruled adversely against the petitioner with Jurist
participation involving the 2019 assignment of 19-55905.
5. Petitioner is a Veteran of the United States Navy and Army Reserves,
and he is a former member of the US Intelligence Agency (Central
Intelligence Agency) (“CIA”). Supreme Court Rule 40 Veteran status
affords petitioner’s proceed without cost. Moreover, petitioner
argues that Rule 40 should support petitioner’s request to vacate
sanctions against him, NOTING THAT one (1) Supreme Court Justice
voted to hear his case. See paragraph 2 (Justice John Paul Stevens).
In conclusion, the fraud on the court matter and Rule 40 (Veteran status)
should allow petitioner to proceed in this Petition for Certiorari. Prays
that court grants Petitioner for Certiorari.

Respectfully Submitted,

David Louis Whitehead
1906 Scott St.
Bossier, Louisiana 71111
January 25, 2021

3

